AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
 COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
      TENNESSEE BUREAU OF INVESTIGATION
      MEMPHIS REGIONAL CRIME LABORATORY
              MEMPHIS, TENNESSEE

            U.S. Department of Justice 

          Office of the Inspector General 

                   Audit Division 

           Audit Report GR-40-11-005 

                   June 2011

  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING 

   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE 

        TENNESSEE BUREAU OF INVESTIGATION 

        MEMPHIS REGIONAL CRIME LABORATORY 

               MEMPHIS, TENNESSEE 


                            EXECUTIVE SUMMARY



      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Tennessee Bureau of
Investigation, Memphis Regional Crime Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons.1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
compare electronically DNA profiles on a national level. The State DNA
Index System (SDIS) is used at the state level to serve as a state’s DNA


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.


                                             i
database and contains DNA profiles from local laboratories and state
offenders. The Local DNA Index System (LDIS) is used by local laboratories.

OIG Audit Objectives

      Our audit generally covered the period from March 2009 through
February 2011. However, our sample of forensic profiles selected for review
was from the Laboratory’s entire universe of forensic profiles. The
objectives of our audit were to determine if: (1) the Tennessee Bureau of
Investigation, Memphis Regional Crime Laboratory was in compliance with
the NDIS participation requirements; (2) the Laboratory was in compliance
with the Quality Assurance Standards (QAS) issued by the FBI; and (3) the
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS.

     Our review determined the following:

  	 The Laboratory complied with NDIS participation requirements tested
     except that it was not storing a copy of the CODIS database
     backup off-site in a lockable container on a monthly basis and it did
     not provide documentation during our audit that it responded to a
     request from another laboratory to confirm an NDIS match. The
     laboratory was in compliance with the remaining NDIS participation
     requirements reviewed. The Laboratory should ensure its written
     procedures address NDIS participation requirements pertaining to
     safeguarding CODIS data.

  	 The Laboratory complied with the Forensic QAS tested. Specifically,
     we found that the Laboratory complied with the FBI’s QAS with respect
     to QAS reviews, laboratory security, protection of the integrity of
     evidence, separation of known and unknown samples, and the
     retention of samples and extracts after analysis.

  	 We reviewed 100 of the 603 forensic profiles the Laboratory had
     uploaded to NDIS as of February 2, 2011. Of the 100 forensic profiles
     sampled, 4 were unallowable for upload to NDIS. The unallowable
     profiles either belonged to a victim, were taken from the suspect’s
     person, or could not be connected to evidence found at the crime
     scene. The CODIS Administrator removed the four profiles from NDIS
     during our on-site work. The remaining 96 profiles we reviewed were
     complete, accurate, and allowable for inclusion in NDIS. Four
     unallowable profiles were processed by the Laboratory in 2007 and
     earlier; therefore it appears the Laboratory has improved its
     procedures for ensuring that allowable profiles are uploaded to NDIS.


                                     ii
      We made two recommendations to address the Laboratory’s
compliance with standards governing CODIS activities, which are discussed
in detail in the Findings and Recommendations section of the report. Our
audit objectives, scope, and methodology are detailed in Appendix I of the
report and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable. In addition, we
requested a written response to a draft of our report from the FBI and the
Laboratory. In its response, the Laboratory agreed that it should be storing
a monthly backup copy of the CODIS database in an off-site lockable
container and provided us a copy of a form that it will use to track
future compliance with this NDIS requirement. The Laboratory also
provided a copy of an e-mail response to another laboratory regarding a
match confirmation request. The e-mail was not available to us during the
audit, and the CODIS Administrator obtained it from the initiating laboratory
after we completed our audit. The FBI agreed with the corrective actions
taken by the Laboratory.




                                      iii
                                TABLE OF CONTENTS



INTRODUCTION ................................................................................ 1

   Background .................................................................................... 1 

   OIG Audit Objectives ....................................................................... 1 

   Legal Foundation for CODIS.............................................................. 1 

   CODIS Structure ............................................................................. 2 

   Laboratory Information .................................................................... 6 


FINDINGS AND RECOMMENDATIONS................................................ 7

   I.    Compliance with NDIS Participation Requirements ......................... 7 

   II.   Compliance with Quality Assurance Standards ............................ 10 

   III. Suitability of Forensic DNA Profiles in CODIS Databases ............... 13 


APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 16


APPENDIX II: AUDIT CRITERIA ..................................................... 19

   NDIS Participation Requirements..................................................... 19 

   Quality Assurance Standards .......................................................... 20 

   Office of the Inspector General Standards......................................... 21


APPENDIX III: FEDERAL BUREAU OF INVESTIGATION
              RESPONSE……………………………………………………….23

APPENDIX IV: 	TENNESSEE BUREAU OF INVESTIGATION
              MEMPHIS REGIONAL CRIME LABORATORY
              RESPONSE…………………………………….………………….24

APPENDIX V: 	OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

             AND SUMMARY OF ACTIONS TAKEN TO

             CLOSE REPORT…………………………………………………..26 

INTRODUCTION


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Tennessee Bureau of
Investigation, Memphis Regional Crime Laboratory (Laboratory).

Background

       The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the
United States using forensic science and computer technology. The CODIS
program allows these laboratories to compare and match DNA profiles
electronically, thereby assisting law enforcement in solving crimes and
identifying missing or unidentified persons.1 The FBI’s CODIS Unit manages
CODIS and is responsible for its use in fostering the exchange and
comparison of forensic DNA evidence.

OIG Audit Objectives

      We conducted our audit from March 2009 through February 2011.
However, our sample of forensic profiles selected for review was from the
Laboratory’s entire universe of forensic profiles. The objectives of our audit
were to determine if: (1) the Tennessee Bureau of Investigation, Memphis
Regional Crime Laboratory was in compliance with the National DNA Index
System (NDIS) participation requirements; (2) the Laboratory was in
compliance with the Quality Assurance Standards (QAS) issued by the FBI;
and (3) the Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. Appendix I contains
a detailed description of our audit objectives, scope, and methodology; and
Appendix II contains the criteria used to conduct our audit.

Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with

       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.


                                             1

subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS.2

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

      The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with the QAS issued by
the FBI. The DNA information in the index is authorized to be disclosed
only: (1) to criminal justice agencies for law enforcement identification
purposes; (2) in judicial proceedings, if otherwise admissible pursuant to
applicable statutes or rules; (3) for criminal defense purposes, to a
defendant who shall have access to samples and analyses performed in
connection with the case in which the defendant is charged; or (4) if
personally identifiable information (PII) is removed for a population statistics
database, for identification research and protocol development purposes, or
for quality control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS), which serves as a state’s DNA database containing
DNA profiles from local laboratories within the state and state offenders; and
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the

      2
          42 U.S.C.A. § 14132 (2006).


                                        2

Palm Beach County, Florida, Sheriff’s Office sends its profiles to the state
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office



National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to compare electronically DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of laboratory-
to-laboratory contacts. NDIS contains the following eight searchable
indices:




                                                  3

  	   Convicted Offender Index contains profiles generated from persons
       convicted of qualifying offenses.3

  	   Arrestee Index is comprised of profiles developed from persons who
       have been arrested, indicted, or charged in an information with a
       crime.

  	   Legal Index consists of profiles that are produced from DNA samples
       collected from persons under other applicable legal authorities.4

  	   Detainee Index contains profiles from non-U.S. persons detained under
       the authority of the United States and required by law to provide a
       DNA sample for analysis and entry into NDIS.

  	   Forensic Index profiles originate from, and are associated with, 

       evidence found at crime scenes. 


  	   Missing Person Index contains known DNA profiles of missing persons
       and deduced missing persons.

  	   Unidentified Human (Remains) Index holds profiles from unidentified
       living individuals and the remains of unidentified deceased individuals.5

  	   Relatives of Missing Person Index is comprised of DNA profiles
       generated from the biological relatives of individuals reported missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes and
(2) identify missing and unidentified persons.

      The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS


       3
        The phrase “qualifying offenses” refers to local, state, or federal crimes that

 require a person to provide a DNA sample in accordance with applicable laws.

       4
        An example of a Legal Index profile is one from a person found not guilty by 

 reason of insanity who is required by the relevant state law to provide a DNA sample.

       5
         An example of an Unidentified Human (Remains) Index profile from a living person
 is a profile from a child or other individual, who cannot or refuses to identify themselves.


                                              4

also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quantity of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and
may not be searched at NDIS.6 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases. Inaccurate

      6
          A “locus” is a specific location on a chromosome. The plural form of locus is loci.

                                               5

profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false positive leads, false negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

      The Tennessee Bureau of Investigation, Memphis Regional Crime
Laboratory participates in the CODIS program as an LDIS laboratory. The
Laboratory opened in January 2002 and immediately began using DNA to
process criminal cases and upload profiles to SDIS. The Laboratory
performs analysis on forensic samples only and has not outsourced the
analysis of forensic samples within the past 2 years. The American Society
of Crime Laboratory Directors/Laboratory Accreditation Board first accredited
the Laboratory in April 2005 and reaccredited it in December 2009 for a
period of 5 years.




                                      6

              FINDINGS AND RECOMMENDATIONS


     I. Compliance with NDIS Participation Requirements

     The Laboratory complied with NDIS participation requirements
     tested except that it was not storing a copy of the CODIS
     database backup at an off-site location and in a lockable
     container on a monthly basis, and did not provide documentation
     during our audit that it had responded to a request from another
     laboratory to confirm an NDIS match.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

      We found that the Laboratory did not store a backup copy of the
CODIS database in an off-site lockable container each month and it did not
provide documentation during our audit that it responded to a match
confirmation request from another laboratory. The Laboratory complied with
other NDIS participation requirements we tested. The results of our audit
are described in more detail below.

Measures to Safeguard CODIS

      We interviewed the CODIS Administrator and conducted a walk-
through tour of the Laboratory. We identified no significant concerns
regarding the Laboratory’s procedures for securing the CODIS server or the
Laboratory’s facilities. However, the CODIS Administrator was not aware of
the NDIS requirement to store monthly a copy of the CODIS database
backup at an off-site location and in a lockable container. During our audit
work, the CODIS Administrator contacted the State CODIS Administrator
who agreed to receive and securely store monthly a copy of the Laboratory’s
CODIS database backup. The Laboratory should ensure its written
procedures address NDIS participation requirements pertaining to
safeguarding CODIS data.


                                     7

NDIS Matches

       NDIS offender match procedures require casework laboratories to
initiate the match process for offender candidate matches. Offender
laboratories should respond to the casework laboratory within 30 business
days of receipt of the request. In two of the four offender matches we
reviewed, there was no record in the case folder that the Laboratory had
requested confirmation of the match. The CODIS Administrator could not
explain why there was no record of the confirmation request in the case
folder. However, in both instances, the offender laboratory confirmed the
match within 30 business days of the National Match Detail Report. The
CODIS Administrator told us that he began using a "CODIS Match
Confirmation Process" checklist on or about July 2010 that tracks the match
process from the "CODIS Match Date" to the date the "Submitting Agency
Informed/Out of State Lab Informed," and that he would ensure that a
record of the confirmation request was included in the case file in the future.

      NDIS forensic match procedures permit either of the casework
laboratories to initiate the forensic match process and that the responding
laboratory should make a good faith effort to respond to the initiating
casework laboratory within 30 business days of receipt of the request. In
one forensic match we reviewed, the CODIS Administrator did not provide
documentation during the audit of his confirmation response to the initiating
casework laboratory. This occurred because another laboratory identified a
suspect who matched the forensic profile and notified both the initiating
laboratory and the Memphis Laboratory. The CODIS Administrator at the
Memphis Laboratory believed he did not need to respond to the initiating
casework laboratory’s request for confirmation. However, NDIS match
procedures require that a laboratory respond to confirmation requests.
Subsequent to our audit, the CODIS Administrator provided a copy of an
e-mail showing he responded to the initiating laboratory’s confirmation
request. The CODIS Administrator obtained the e-mail from the initiating
laboratory after we completed our audit work.

      We have established a 2-week standard in order to assess a
                                                  7
laboratory’s timely notification of investigators. From June 2003 to October
2010, the Laboratory had 32 NDIS matches. We initially reviewed five of
these matches and found that for one match confirmed on June 4, 2010, the
Laboratory informed investigators of the match 25 business days after the
confirmation. The CODIS Administrator could not explain the delay. To
determine whether this delay was an anomaly, we selected three additional
NDIS matches to determine if there were other instances when investigators

      7
          See Appendix II for an explanation of this OIG standard.

                                             8

were not notified of confirmed matches in a timely manner. The Laboratory
notified investigators timely in all three additional matches tested. As a
result, we concluded that the Laboratory generally notified investigators of
CODIS matches in a timely manner and make no recommendation regarding
the timely notification of investigators.

       We found that the Laboratory complied with the other NDIS
participation requirements we reviewed, as described below.

  	 We interviewed the CODIS Administrator and reviewed documents to
     determine that the Laboratory provided appropriate personnel with
     copies of the NDIS procedures manual. We interviewed two CODIS
     users and determined that they both understood NDIS procedures and
     could access the procedures on the FBI’s Criminal Justice Information
     System Wide Area Network.

  	 We verified with the FBI that all Laboratory CODIS users have 

     completed the 2011 DNA Records Acceptable at NDIS training. 


  	 For each CODIS user, the Laboratory is required to send certain
     background and security information to the FBI. We verified that the
     Laboratory submitted the required information to the FBI.

  	 We determined the Laboratory complied with NDIS requirements
     regarding the maintenance of personnel records.

Conclusion

      The Laboratory was in compliance with NDIS participation
requirements tested except that it was not storing a backup copy of the
CODIS database in an off-site lockable container on a monthly basis and did
not provide documentation during our audit that it had responded to a
request from another laboratory for confirmation of an NDIS match.

Recommendations

We recommend that the FBI:

1. Ensure that the Laboratory stores a monthly backup copy of the CODIS
   database in an off-site lockable container.

2. Ensure that the Laboratory responds to requests for NDIS match
   confirmations.


                                     9

       II. Compliance with Quality Assurance Standards

       The Laboratory complied with the Forensic QAS we reviewed.
       Specifically, we found that the Laboratory complied with the
       FBI’s QAS with respect to QAS reviews, laboratory security,
       protection of the integrity of evidence, separation of known and
       unknown samples, and the retention of samples and extracts
       after analysis.

      During our audit, we considered the Forensic QAS issued by the FBI.8
These standards describe the quality assurance requirements that the
Laboratory must follow to ensure the quality and integrity of the data it
produces. We also assessed the two most recent QAS reviews that the
laboratory underwent.9 The QAS we reviewed are listed in Appendix II.

Results of the OIG Audit

       We found that the Laboratory complied with the Forensic QAS tested.
Specifically, we found that the Laboratory complied with the FBI’s QAS with
respect to QAS reviews, laboratory security, protection of the integrity of
evidence, separation of known and unknown samples, and the retention of
samples and extracts after analysis. These results are described in more
detail as follows.

   	 We determined the Laboratory underwent a QAS review during each of
      the last 2 calendar years as required by the QAS for laboratory
      reviews. The Laboratory underwent a QAS review by internal
      reviewers in November 2009 and by external reviewers in May 2010.

   	 We reviewed the most recent QAS review reports provided by the
      CODIS Administrator and determined that the FBI’s QAS Review
      Document was used to conduct the most recent external and internal
      reviews. The FBI confirmed that the QAS reviewers for both reviews

       8
         Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective July 1, 2009.
       9
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS require that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed These audits are
not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.


                                            10 

  had successfully completed the FBI QAS Review training course. There
  were three findings in the last external review report and no findings in
  the last internal review report. According to the last external review
  report: (1) the Laboratory did not have and follow a documented
  policy for monitoring contamination; (2) the Laboratory had not
  defined the requirements for performance checks after repair, service,
  or calibration of equipment; and (3) there was no documentation to
  indicate that the laboratory used the date received, assigned date,
  submitted date, or due date as the date the proficiency test is
  performed. The three findings required modifications to the state
  laboratory policies. The Laboratory System's Technical Manager made
  the required changes to the state policies. These changes were
  reviewed and approved by the Regional Laboratory Supervisor, the
  Quality Assurance Manager, and the Assistant Director for Laboratory
  Services. We also reviewed these changes to the state’s laboratory
  policies and determined that the changes appeared adequate to
  address the QAS review findings. The state’s CODIS Administrator
  forwarded the Laboratory’s most recent external QAS Review Report to
  the FBI before the end of an extension period authorized by the FBI.

	 We asked the QAS reviewer who conducted the most recent external
   QAS review to certify that she had no impairments to her
   independence. She provided us with this certification.

	 We toured the Laboratory building and interviewed the CODIS
   Administrator to determine that the facility appeared to have adequate
   physical access controls in place.

	 We toured the Laboratory building and reviewed policies to determine
   that the Laboratory appeared to have adequate procedures in place to
   ensure the integrity of physical evidence.

	 We interviewed the CODIS Administrator and reviewed policies and
   practices to determine that the Laboratory’s policies and practices
   regarding the separation of known and unknown samples during the
   analysis process appeared to be adequate.

	 We interviewed the CODIS Administrator and toured the Laboratory to
   determine that the Laboratory appeared to be in compliance with
   forensic standards governing the retention of samples and extracts
   after analysis.




                                  11 

   	 We interviewed the Regional Laboratory Supervisor and determined
      that the Laboratory had not outsourced the analysis of DNA samples
      within the prior 2 years.

Conclusion

      We determined that the Laboratory complied with the Forensic QAS we
reviewed, including laboratory security, protecting the integrity of evidence,
separation of known and unknown samples, the retention of samples and
extracts after analysis, as well as compliance with QAS reviews. We made
no recommendations concerning our review of Quality Assurance Standards.




                                     12 

       III. Suitability of Forensic DNA Profiles in CODIS Databases

       Of the 100 forensic profiles sampled, we found 4 were
       unallowable for upload to NDIS. The unallowable profiles either
       belonged to a victim, were taken from the suspect’s person, or
       could not be connected to evidence found at the crime scene.
       The CODIS Administrator removed the four profiles from NDIS,
       while we were on site. The remaining 96 profiles we reviewed
       were complete, accurate, and allowable for inclusion in NDIS.

       We reviewed a sample of the Laboratory’s Forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS.10 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results, and that the values at each locus match those
identified during analysis. Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person who is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection. However, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime. For
instance, a profile from an item seized from the suspect’s person, such as a
shirt, or that was in the possession of the suspect when collected is
generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.




       10
           When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample
is taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.


                                            13 

Results of the OIG Audit

      We selected a sample of 100 profiles out of the 603 forensic profiles
the Laboratory had uploaded to NDIS as of February 2, 2011. Of the 100
forensic profiles sampled, we found 4 were unallowable for upload to NDIS.
One of the unallowable profiles belonged to a victim, two were taken from
the suspect’s person, and one profile was not collected from evidence found
at the crime scene. The CODIS Administrator removed these four profiles
from NDIS during our audit work. The remaining 96 profiles sampled were
complete, accurate, and allowable for inclusion in NDIS. The specific
exceptions are explained in more detail below.

OIG Sample Number CA-13

       Sample Number CA-13 was taken from a pair of blue jeans belonging
to a suspect in a rape and stabbing. The investigators believed the blue
jeans may have contained the victim’s blood tying the suspect to the crime.
However, the blue jeans were not obtained from the crime scene but directly
from a suspect during the investigation. Because the sample was seized
from the suspect’s person and therefore was not a forensic unknown, the
resulting profile was not eligible for upload to NDIS. The CODIS
Administrator could not explain this submission error and removed the
profile from CODIS during our audit work. The Laboratory processed this
case in February 2005.

OIG Sample Number CA-23

      Sample Number CA-23 was taken from a jacket belonging to the
suspect in a murder. The investigators believed the jacket may have
contained the victim’s blood. However, the jacket was not obtained from the
crime scene but directly from the suspect at the city jail. Because the
sample was seized from the suspect’s person it was not a forensic unknown
and therefore not eligible for upload to NDIS. The CODIS Administrator
could not explain this submission error and removed the profile from CODIS
during our audit work. The Laboratory processed this case in March 2007.

OIG Sample Number CA-24

       Sample Number CA-24 was taken from a pair of stained boxer shorts
found in a hotel room where the suspects were apprehended. The victim
was a state trooper who was shot and killed during a traffic stop. Although
the investigators found these shorts during their investigation, the shorts
were not obtained from the crime scene and the resulting profile was not
eligible for upload to NDIS. The CODIS Administrator could not explain this

                                    14 

submission error and removed the profile from CODIS during our audit work.
The Laboratory processed this case in June 2007.

OIG Sample Number CA-55

      Prior to our review of the case file, the CODIS Administrator identified
Sample Number CA-55 as belonging to the victim in the crime and removed
the profile from CODIS. The sample was taken from a white t-shirt stained
with blood found a short distance from the murdered victim’s vehicle. The
vehicle was located near the suspect’s house and the investigators believed
the t-shirt belonged to the perpetrator. However, according to the case file,
the DNA profile matched the victim’s standard and was ineligible for upload
to NDIS. The Laboratory processed this case in December 2003.

       The Laboratory processed the four unallowable profiles discussed
above in 2007 or earlier. Of our sample of 100 profiles tested, the
Laboratory processed 47 profiles after 2007 and we found no unallowables
among those more-recently processed profiles. While the Laboratory could
not provide explanations for the unallowable profiles, it appears from our
post-2007 sample that the Laboratory is no longer uploading unallowable
profiles.

Conclusion

       Of the 100 forensic profiles tested, 4 profiles were ineligible for upload
to NDIS. The remaining 96 profiles were complete, accurate, and allowable
for inclusion in NDIS. Of the four ineligible profiles, the Laboratory
processed two of these cases more than 6 years ago and the other two
cases 4 years ago. Because our sample did not reflect errors in the
Laboratory’s analysis of samples from the last 4 years, it appears the
Laboratory is now ensuring that only allowable profiles are uploaded to
NDIS. Consequently, we made no recommendations concerning our review
of forensic DNA profiles.




                                       15 

                                                               APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Our audit generally covered the period from March 2009 through
February 2011. However, our sample of forensic profiles selected for review
was from the Laboratory’s entire universe of forensic profiles. The
objectives of the audit were to determine if the: (1) Laboratory was in
compliance with the NDIS participation requirements; (2) Laboratory was in
compliance with the QAS issued by the FBI; and (3) Laboratory’s forensic
DNA profiles in CODIS databases were complete, accurate, and allowable for
inclusion in NDIS. To accomplish the objectives of the audit, we:

  	 Examined internal and external Laboratory QAS review reports and
     supporting documentation for corrective action taken, if any, to
     determine whether: (a) the Laboratory complied with the QAS,
     (b) repeat findings were identified, and (c) recommendations were
     adequately resolved.

     In accordance with the QAS, the internal and external laboratory review
     procedures are to address, at a minimum, a laboratory’s quality
     assurance program, organization and management, personnel
     qualifications, facilities, evidence control, validation of methods and
     procedures, analytical procedures, calibration and maintenance of
     instruments and equipment, proficiency testing of analysts, corrective
     action for discrepancies and errors, review of case files, reports, safety,
     and previous audits. The QAS require that internal and external reviews
     be performed by personnel who have successfully completed the FBI’s
     training course for conducting such reviews.

     As permitted by GAS 7.42 (2007 revision), we generally relied on the
     results of the Laboratory’s external laboratory review to determine if




                                      16 

       the Laboratory complied with the QAS.11 In order to rely on the work
       of non-auditors, GAS requires that we perform procedures to obtain
       sufficient evidence that the work can be relied upon. Therefore, we:
       (1) obtained evidence concerning the qualifications and independence
       of the individuals who conducted the review and (2) determined that
       the scope, quality, and timing of the audit work performed was
       adequate for reliance in the context of the current audit objectives by
       reviewing the evaluation procedure guide and resultant findings to
       understand the methods and significant assumptions used by the
       individuals conducting the reviews. Based on this work, we
       determined that we could rely on the results of the Laboratory’s
       external laboratory review.

   	 Interviewed Laboratory officials to identify management controls,
      Laboratory operational policies and procedures, Laboratory certifications
      or accreditations, and analytical information related to DNA profiles.

   	 Toured the Laboratory to observe facility security measures as well as
      the procedures and controls related to the receipt, processing,
      analyzing, and storage of forensic evidence.

   	 Reviewed the Laboratory’s written policies and procedures related to
      conducting internal reviews, resolving review findings, and resolving
      matches among DNA profiles in NDIS.

   	 Reviewed supporting documentation for 8 of 32 NDIS matches to
      determine whether they were resolved in a timely manner. The
      Laboratory provided the universe of NDIS matches as of February 16,
      2011. The sample was judgmentally selected to include both case-to-
      case and case-to-offender matches. This non-statistical sample does
      not allow projection of the test results to all matches.

   	 Reviewed the case files for selected forensic DNA profiles to determine if
      the profiles were developed in accordance with the Forensic QAS and
      were complete, accurate, and allowable for inclusion in NDIS.

       Working in conjunction with the contractor used by the FBI to maintain
       NDIS and the CODIS software, we obtained an electronic file identifying
       the 603 forensic profiles the Laboratory had uploaded to NDIS as of

       11	
           We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on the results of that review because it was not performed by personnel
independent of the Laboratory. Further, as noted in Appendix II, we performed audit
testing to verify Laboratory compliance with specific Quality Assurance Standards that have
a substantial effect on the integrity of the DNA profiles uploaded to NDIS.

                                             17 

     February 2, 2011. We limited our review to a sample of 100 profiles.
     This sample size was determined judgmentally because preliminary
     audit work determined that risk was not unacceptably high.

  	 Using the judgmentally-determined sample size, we randomly selected a
     representative sample of labels associated with specific profiles in our
     universe to reduce the effect of any patterns in the list of profiles
     provided to us. However, because the sample size was judgmentally
     determined, the results obtained from testing this limited sample of
     profiles may not be projected to the universe of profiles from which the
     sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                     18 

                                                                     APPENDIX II

                               AUDIT CRITERIA


      In conducting our audit, we considered the NDIS participation
requirements and the QAS. However, we did not test for compliance with
elements that were not applicable to the Laboratory. In addition, we
established standards to test the completeness and accuracy of DNA profiles
as well as the timely notification of DNA profile matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS requirements.

      DNA Data Acceptance Standards
      DNA Data Accepted at NDIS
      QAS Reviews
      NDIS DNA Autosearches
      Confirm an Interstate Candidate Match
      General Responsibilities
      Initiate and Maintain a Laboratory’s Participation in NDIS
      Security Requirements
      CODIS Users
      CODIS Administrator Responsibilities
      Access to, and Disclosure of, DNA Records and Samples
      Upload of DNA Records
      Expunge a DNA Record
      The FBI Flowchart: A Guide to Determining What is Allowable in the
       Forensic Index at NDIS12




       12
         The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
 from the MOU and NDIS operational procedures. The flowchart is contained in the 2010
 CODIS Administrator’s Handbook and has been provided to laboratories in forums such as
 CODIS conferences.
                                          19 

Quality Assurance Standards

      The FBI issued two sets of QAS: QAS for Forensic DNA Testing
Laboratories, effective July 1, 2009 (Forensic QAS); and QAS for DNA
Databasing Laboratories, effective July 1, 2009 (Offender QAS). The
Forensic QAS and the Offender QAS describe the quality assurance
requirements that the Laboratory should follow to ensure the quality and
integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   	 Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
      have a facility that is designed to ensure the integrity of the analyses
      and the evidence.

   	 Evidence Control (Forensic QAS 7.1): The laboratory shall have and
      follow a documented evidence control system to ensure the integrity of
      physical evidence. Where possible, the laboratory shall retain or return
      a portion of the evidence sample or extract.

   	 Sample Control (Offender QAS 7.1): The laboratory shall have and
      follow a documented sample inventory control system to ensure the
      integrity of the database and known samples.

   	 Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
      laboratory shall monitor the analytical procedures using [appropriate]
      controls and standards.

   	 Review (Forensic QAS 12.1): The laboratory shall conduct
      administrative and technical reviews of all case files and reports to
      ensure conclusions and supporting data are reasonable and within the
      constraints of scientific knowledge.

      (Offender QAS Standard 12.1): The laboratory shall have and follow
      written procedures for reviewing DNA records and DNA database
      information, including the resolution of database matches.




                                      20 

  	 Reviews (Forensic QAS 15.1 and 15.2): The laboratory shall be audited
     annually in accordance with [the QAS]. The annual audits shall occur
     every calendar year and shall be at least 6 months and no more than 18
     months apart.

     At least once every 2 years, an external audit shall be conducted by an
     audit team comprised of qualified auditors from a second agency(ies)
     and having at least one team member who is or has been previously
     qualified in the laboratory’s current DNA technologies and platform.

  	 Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A vendor
     laboratory performing forensic and database DNA analysis shall comply
     with these Standards and the accreditation requirements of federal law.

     Forensic QAS 17.4: An NDIS participating laboratory shall have and
     follow a procedure to verify the integrity of the DNA data received
     through the performance of the technical review of DNA data from a
     vendor laboratory.

     Offender QAS Standard 17.4: An NDIS participating laboratory shall
     have, follow and document appropriate quality assurance procedures to
     verify the integrity of the data received from the vendor laboratory
     including, but not limited to, the following: Random reanalysis of
     database, known or casework reference samples; Inclusion of Quality
     Control samples; Performance of an on-site visit by an NDIS
     participating laboratory or multi-laboratory system outsourcing DNA
     sample(s) to a vendor laboratory or accepting ownership of DNA data
     from a vendor laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  	 Completeness of DNA Profiles: A profile must include each value
     returned at each locus for which the analyst obtained results. Our
     rationale for this standard is that the probability of a false match
     among DNA profiles is reduced as the number of loci included in a
     profile increases. A false match would require the unnecessary use of
     laboratory resources to refute the match.

  	 Accuracy of DNA Profiles: The values at each locus of a profile must
     match those identified during analysis. Our rationale for this standard


                                    21 

  is that inaccurate profiles may: (1) preclude DNA profiles from being
  matched and, therefore, the potential to link convicted offenders to a
  crime or to link previously unrelated crimes to each other may be lost;
  or (2) result in a false match that would require the unnecessary use
  of laboratory resources to refute the match.

	 Timely Notification to Law Enforcement When DNA Profile Matches
   Occur in NDIS: Laboratories should notify law enforcement personnel
   of NDIS matches within 2 weeks of the match confirmation date,
   unless there are extenuating circumstances. Our rationale for this
   standard is that untimely notification to law enforcement personnel
   may result in the suspected perpetrator committing additional, and
   possibly more egregious, crimes if the individual is not deceased or
   already incarcerated for the commission of other crimes.




                                 22 

                                                                            APPENDIX III

        FEDERAL BUREAU OF INVESTIGATION RESPONSE


                                                       U. S. Department of Justice
                                                       Federal Bureau of Investigation
                                                       Washington D. C. 20535-0001

                                                       June 15, 2011

Mr. Ferris B. Polk
Regional Audit Manager
Atlanta Regional Audit Office
Office of the Inspector General
75 Spring Street, Suite 1130
Atlanta, GA 30303

Dear Mr. Polk:

               Your memorandum to Director Mueller forwarding the draft audit report for the
Tennessee Bureau of Investigation Memphis Regional Crime Laboratory, Memphis, Tennessee
(Laboratory), has been referred to me for response.

               As you are aware, your draft audit report contained two recommendations relating
to the Laboratory's compliance with the FBI’s Memorandum of Understanding for Participation
in the National DNA Index System (NDIS) and Quality Assurance Standards for Forensic DNA
Testing Laboratories.

               With respect to recommendation one relating to the storage of a copy of the
CODIS database backup at an off-site, the CODIS Unit has reviewed the Laboratory's form for
documenting the monthly transfer of the backup tapes. The form will complement the
Laboratory's security section of its operating procedures. The CODIS Unit supports closure of
this recommendation.

               With respect to recommendation two relating to the timely response to requests
for NDIS match confirmation, the Laboratory has now provided documentation to prove that it
was in contact with the laboratories involved in the forensic matches. The CODIS Unit believes
that the Laboratory is now familiar with what is required for confirming matches. The CODIS
Unit supports closure of this recommendation.

                Thank you for sharing the draft audit report with us. If you have any questions,
please feel free to contact Jennifer C. Luttman, Chief of the CODIS Unit at (703) 632-8302.

                                                        Sincerely,

                                                               /s/
                                                        Alice R. Isenberg, Ph.D
                                                        Section Chief
                                                        Biometrics Analysis Section
                                                        FBI Laboratory


                                                23 

                                                                            APPENDIX IV

         TENNESSEE BUREAU OF INVESTIGATION 

     MEMPHIS REGIONAL CRIME LABORATORY RESPONSE 



                       TENNESSEE BUREAU OF INVESTIGATION
                                         6325 Haley Rd.

                                   Memphis, Tennessee 38134 

                                         (901) 379-3400 

                                    Facsimile (901) 372-5963



June 13, 2011

Mr. Ferris B. Polk
Regional Audit Manager
U.S. Department of Justice
Office of the Inspector General
Atlanta Regional Audit Office
75 Spring Street, Suite 1130
Atlanta, GA 30303

Dear Mr. Polk,

Please find below comments and attachments from the Tennessee Bureau of Investigation,
Memphis Regional Crime Laboratory, regarding the OIG draft audit report on the Compliance
with Standards Governing Combined DNA Index System Activities, specifically the Findings
and Recommendations on pp. 7-9 of the draft report.

I.     Compliance with NDIS Participation Requirements

       “The Laboratory complied with NDIS participation requirements tested except that it was
       not storing a copy of the CODIS database backup at an off-site location and in a lockable
       container on a monthly basis, and did not respond to a request from another laboratory for
       confirmation of an NDIS match.”

Regarding the first finding that no CODIS backup copy was being stored off-site, TBI concedes
this shortcoming. Although TBI’s CODIS protocol specifies that a backup tape will be sent to
another TBI lab on a monthly basis (refer to the attached p. 2/6 of the Security section of the TBI
CODIS Protocol), this policy was missed by oversight in the Memphis lab during the abrupt
transition from the previous CODIS Administrator. To ensure that this lapse does not occur
again, TBI has created a form for documenting the monthly transfer of the backup tapes between
labs (please see form attached).




                                               24 

Regarding the second finding that a confirmation request from another state was disregarded, a
series of email communications with the three involved labs has been attached. The emails show
that this string of cases involving a common perpetrator had previously been settled between the
three labs before TBI’s hit occurred. All three administrators – xxxxx xxxxxxx xxxx xxxxx
                                                                           Names redacted.
xxxxxxxxxxxx xxxxx xxxx xxxxxxxx xxxxxxxx xxxxx xxxxxx xxxx xxxxx xxxxxxx xxx
                           Names redacted.
xxxxxx xxxxxxxx xxxxxxxx xxxxx xx xxxxxxxx xxxxxxx – acknowledge in their
communications the prior hits between the three states. xxxxx xxxxxx xx xxx xxxxx states that
                                                                Name redacted.
her lab’s profile matched the standard of a known suspect in the case. From these
communications, TBI inferred that all parties had adequate information to resolve their
respective cases prior to the TBI hit.

Regardless, the dialogues show that each laboratory involved in the hit was responded to.
Michigan State Police requested additional case information, and it was provided. Virginia DFS
was informed that the Tennessee case was unsolved; TBI was negligent in exchanging case
information, primarily out of the mistaken idea that the phrase “match confirmation process”
referred to verification of data and exchange of personal information in the context of offenders
only.

According to the NDIS Confirm an Interstate Candidate Match Operational Procedures, section
4.3.3, “if one or more of the cases have been solved and the laboratories exchange this
information, it may not be necessary to proceed with the confirmation process.” Also, section
4.3.5 states that, “for a solved case matching an unsolved case, the laboratory responsible for the
solved case is providing the information relating to a putative perpetrator.” These guidelines
were factors in the confusion and decision that information did not need to be exchanged.

In full disclosure, most of the documented communication stemming from this forensic hit was
not available for review at the time that the auditors were on site and had to be obtained through
the other labs after the audit. This lack of documentation surely led the auditors to conclude that
minimal effort had been made by TBI to resolve or respond to the hits.

TBI appreciates the opportunity to respond to the OIG draft audit report. If I can be of any
further assistance, please do not hesitate to contact me at 901-379-3455.


Sincerely,


     /s/

Loren James
Special Agent Forensic Scientist
Local CODIS Administrator

Enclosure




                                               25 

                                                            APPENDIX V

           OFFICE OF THE INSPECTOR GENERAL 

        ANALYSIS AND SUMMARY OF ACTIONS TAKEN 

                   TO CLOSE REPORT



      The OIG provided a draft of this audit report to both the FBI and the
Memphis Regional Crime Laboratory. The FBI’s response is incorporated in
Appendix III of this final report. The Memphis Regional Crime Laboratory’s
response is incorporated in Appendix IV of this report. The following
provides the OIG analysis of the responses and summary of actions taken to
close the report.

Summary of Actions Taken to Close Report

  1. Closed. The Laboratory agreed that it should be storing a monthly
     backup copy of the CODIS database in an off-site lockable container.
     The Laboratory identified a protocol that it had in place at the time of
     our audit, which addressed this NDIS requirement. The CODIS
     Administrator told us that he was not aware of this protocol. The
     Laboratory’s response to the draft report states that in response to the
     audit the Laboratory has established a form to track future compliance
     with this NDIS requirement. Based on this corrective action, the FBI
     and the Laboratory requested that we close this recommendation.
     This recommendation is closed based on steps the Laboratory took to
     ensure it stores a monthly backup copy of the CODIS database in an
     off-site lockable container.

  2. Closed. During our on-site review of the Laboratory’s files, we found
     no documentation showing that the CODIS Administrator responded to
     an initiating laboratory’s confirmation request. We recommended that
     the FBI ensure the Laboratory responds to requests for NDIS match
     confirmations. Along with its response to the draft report, the
     Laboratory provided documentation showing the CODIS Administrator
     responded timely via an e-mail to the initiating laboratory’s
     confirmation request. This documentation was not available to us
     during the audit, and the CODIS Administrator obtained it from the
     initiating laboratory after we completed our work. This
     recommendation is closed based on documentation provided
     subsequent to the audit showing the Laboratory responded to match
     confirmation requests.


                                    26 

